TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Tax Exempt Bonds Office Has
                    Established Controls, but Improvements
                     Are Needed to Prevent Improprieties



                                       December 21, 2007

                              Reference Number: 2008-10-052




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-927-7037
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         December 21, 2007


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Tax Exempt Bonds Office Has Established
                             Controls, but Improvements Are Needed to Prevent Improprieties
                             (Audit # 200610020)

 This report presents the results of our review of examination closing actions by the Tax Exempt
 Bonds (TEB) office. The overall objectives of this review were to determine whether closing
 actions for tax-exempt bond examinations opened-in-error appropriately complied with Internal
 Revenue Service (IRS) guidelines and whether security and controls over closing actions for
 field examination cases were effective. This audit was requested by the Director, Government
 Entities, to determine whether actions to close tax-exempt bond examinations using the opened-
 in-error disposal code were appropriate. This audit was conducted as part of the Treasury
 Inspector General for Tax Administration Office of Audit Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 Controls over examination closures are needed to provide assurance that capital raised from
 issuing tax-exempt bonds will be appropriately used for public works projects, and examinations
 are conducted with integrity and fairness. However, we identified control weaknesses that could
 allow employees to improperly close examinations without managers being aware of the actions.
 In addition, because of a lack of documentation, we could not determine if the high-risk opened-
 in-error disposal code was used correctly or if it was the appropriate action to take on the
 examination case.
                        The Tax Exempt Bonds Office Has Established
               Controls, but Improvements Are Needed to Prevent Improprieties




Synopsis
The TEB office established some significant controls for closing examinations established on the
inventory system and ensured the ability to close cases from the inventory system was limited to
authorized TEB employees. For example, examiners attest that conclusions are technically
correct and procedurally accurate by preparing an examination closing record and then
assembling the case file according to specific guidelines. The case files, including the
examination closing record, are then reviewed by supervisors. The TEB office also performs
limited-scope examinations on refund claims and limits the capability to close cases from the
inventory system to just the inventory coordinators.
While the TEB office established several controls, there are still two key areas without controls.
Specifically, examinations that are determined to be opened-in-error can be closed without
documentation of managerial approval, and key procedures that should be completed by different
individuals are being performed by the same employee. Both of these control weaknesses could
allow employees to improperly close examinations without managerial approval.
For example, one of the higher risk disposal codes for closing an examination is reserved for
examinations that were established on the inventory system in error. Due to the high risk,
IRS procedures require both the supervisor and the Manager, Field Operations, to sign a form
approving the closing action. These forms are required to be retained for 1 year. We determined
the TEB office did not comply with the requirements to document and retain approval forms for
any of the 521 examinations that were closed from the inventory system using the
opened-in-error disposal code between Fiscal Years 2002 and 2006. Since approval forms were
not used or retained, we could not determine if the high-risk opened-in-error disposal code was
used correctly or if it was the appropriate action to take on the examination case.
In addition, once an examination is complete, the TEB office is required to send closing letters to
bond issuers detailing the results of examinations. It is critical that evidence of adequate
separation of duties exists between the processes of working the case, approving the closing
letter, and mailing the closing letter to the bond issuer and other related stakeholders. Under the
existing process, supervisors are provided with the full capability to perform all of these tasks
with no requirement to maintain documentation of approvals in the examination case files.

Recommendations
We recommended the Director, TEB, ensure the inventory coordinator does not close
examinations that were opened-in-error until the form approving the closing action is received.
In addition, we recommended the Director, TEB, develop and implement controls to ensure the
appropriate managerial approvals are obtained and documented for closing letters and refund
claims.

                                                                                                  2
                       The Tax Exempt Bonds Office Has Established
              Controls, but Improvements Are Needed to Prevent Improprieties




Response
IRS management agreed with our recommendations. The TEB office plans to update its
procedures and ensure controls are followed for approving examinations opened-in-error. In
addition, the TEB office plans to ensure appropriate managerial approvals are obtained and
documented for closing letters and refund claims. Management’s complete response to the draft
report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                                3
                             The Tax Exempt Bonds Office Has Established
                    Controls, but Improvements Are Needed to Prevent Improprieties




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 2
          While Several Controls Have Been Established, Controls for Closing
          Examination Cases Should Be Strengthened to Ensure Actions Are
          Appropriate and Properly Authorized...........................................................Page 2
                    Recommendations 1 and 2: ................................................Page 7


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
               The Tax Exempt Bonds Office Has Established
      Controls, but Improvements Are Needed to Prevent Improprieties




                      Abbreviations

IRS             Internal Revenue Service
TEB             Tax Exempt Bonds
                          The Tax Exempt Bonds Office Has Established
                 Controls, but Improvements Are Needed to Prevent Improprieties




                                           Background

The Office of Tax Exempt Bonds (TEB) was established as part of the Internal Revenue
Service’s (IRS) Tax Exempt and Government Entities Division in Fiscal Year 1999 to administer
the Federal tax laws applicable to tax-exempt municipal bonds. Municipal bonds provide
tax-exempt financing for Governmental and other qualified purposes including the construction
of airports, hospitals, schools, and road improvements, as well as facilities and equipment used in
providing police, fire, and rescue services.
The TEB office is responsible for examining bonds after they are issued to ensure the bonds are
being used for tax-exempt purposes and are complying with Federal tax laws.1 The TEB office
also performs limited-scope examinations of refund claims.
Most tax-exempt bond returns selected for examination are controlled on the TEB office’s
inventory control system.2 Upon closing a case, the inventory coordinator assigns a disposal
code which briefly describes the results of the examination or the reason the case was not
examined.
One of the higher risk disposal codes is reserved for cases that were established on the inventory
system in error. This code indicates that the examination should have never been started, so the
inventory control is closed. For example, examinations are considered to be opened-in-error if
the wrong tax year or incorrect taxpayer information was entered on the inventory system.
The Director, Government Entities, requested that we determine if actions to close tax-exempt
bond examinations using the opened-in-error disposal code were appropriate. This review was
performed at the TEB National Headquarters in Washington, D.C., and the TEB Field Group
office in Englewood, Colorado, during the period March through July 2007. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Detailed information on our audit objectives, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.


1
  Internal Revenue Code Section (§) 103(a) (2002) is the primary statutory provision that excludes interest on
municipal bonds from Federal income tax.
2
  The inventory system used by the Tax Exempt and Government Entities Division to control examination returns,
input assessments/adjustments to the taxpayer’s account, and provide management information reports is known as
the Audit Information Management System. This system tracks the location, age, and status of cases.
                                                                                                        Page 1
                           The Tax Exempt Bonds Office Has Established
                  Controls, but Improvements Are Needed to Prevent Improprieties




                                      Results of Review

While Several Controls Have Been Established, Controls for Closing
Examination Cases Should Be Strengthened to Ensure Actions Are
Appropriate and Properly Authorized
The TEB office established some significant controls for closing examinations established on the
inventory system and ensured the ability to close cases from the inventory system was limited to
authorized TEB employees. Specifically, these controls include:
•   Attesting that conclusions are technically correct and procedurally accurate by completing an
    examination closing record. Examiners then assemble the case files in accordance with
    specific guidelines.
•   Requiring supervisors to timely review the assembled case file, including the examination
    closing record and the special handling notice, prior to closing and determining whether the
    case is technically and procedurally accurate. Supervisors also ensure closing letters and any
    related documents are mailed to taxpayers, assess the quality of examinations, record the
    results on quality review checklists, and ensure the inventory system is updated to reflect that
    the case has been transmitted to the Manager, Field Operations.
•   Performing limited-scope examinations on refund claims. Like standard examinations, the
    claims are controlled on an inventory system, but the examinations are typically limited to
    approving the validity of the claims. If the claim is determined to be appropriate, a refund
    voucher is submitted to a TEB specialist for validation that the claim should be paid. Upon
    approval, the refund voucher is forwarded to the Ogden Submission Processing Center for
    payment of the refund, and the examination is closed on the inventory system.
•   Limiting the capability to close a case from the inventory system to inventory coordinators.
    The inventory coordinators reconcile the inventory system monthly by comparing closed
    records to a manual spreadsheet of cases submitted for closure to ensure the closing action
    was properly recorded. At the end of the quarter, the inventory coordinator researches the
    updated Master File3 information for each of the closed cases to determine where the case
    should be filed for retention.
•   Reviewing samples of closed examination cases. Selected cases are quality reviewed
    quarterly by the Manager, Compliance and Program Management; Manager, Field

3
  The Master File is the IRS database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data.
                                                                                                            Page 2
                        The Tax Exempt Bonds Office Has Established
               Controls, but Improvements Are Needed to Prevent Improprieties



   Operations; and the Director, TEB. In addition, mandatory reviews of cases are performed
   by the Manager, Compliance and Program Management, when cases are referred to the
   IRS Appeals function or when examiners request technical advice from IRS Counsel
   regarding the procedural accuracy of potential closing agreements.
While the TEB office established several controls, there are still two key areas without controls.
If TEB office management does not establish effective controls over these areas, there is a risk
that improprieties could occur and go unnoticed by TEB office management. Specifically,
examinations that are determined to be opened-in-error can be closed without documentation of
managerial approval, and key procedures that should be completed by different individuals are
being performed by the same employee. Both of these control weaknesses could allow
employees to improperly close examinations without managerial approval.

Approvals to close examination cases that are opened-in-error were not
documented and retained
Due to the high-risk nature of tax-exempt bond examination cases that are closed as
opened-in-error, IRS procedures require both the supervisor and the Manager, Field Operations,
to sign a form approving the closing action. These forms are required to be retained for 1 year
after the inventory coordinator inputs the closing action into the inventory system.
We determined the TEB office did not comply with the requirements to document and retain
approval forms for any of the 521 examinations that were closed from the inventory system
using the opened-in-error disposal code between Fiscal
Years 2002 and 2006. Since approval forms were not            Lack of control over high-risk
used or retained, we could not determine if the high-risk         closures provides the
opened-in-error disposal code was used correctly or if it    opportunity for improprieties to
was the appropriate action to take on the examination           occur and go undetected.
case. While it is possible that all closings were
appropriate, the lack of control over high-risk closures
provides the opportunity for improprieties to occur and go undetected. For example,
IRS examiners could close an examination with an opened-in-error disposal code in exchange for
personal compensation since no records exist to show the closing action was approved by a
supervisor and the Manager, Field Operations.
Between Fiscal Years 2002 and 2006, 2,025 examinations were closed. During the same period,
an additional 521 examination cases were closed using the opened-in-error disposal code.
Figure 1 shows the total volume of closed examination cases by fiscal year.




                                                                                            Page 3
                          The Tax Exempt Bonds Office Has Established
                 Controls, but Improvements Are Needed to Prevent Improprieties



                    Figure 1: Closed Examination Cases by Fiscal Year
        Fiscal Year              2002         2003         2004         2005        2006        Total
        Examinations              235          256           8           19            3         521
        Opened-in-Error
        All Other                 366          351          377          466           465      2,025
        Examination
        Closures
       Source: TEB office inventory system data for Fiscal Years 2002 through 2006.4

Due to the high volume of opened-in-error disposal codes in Fiscal Years 2002 and 2003, we
performed additional research to determine whether the disposal code was being used correctly.
TEB office officials informed us that, in Fiscal Years 2002 and 2003, the TEB office began the
process of converting the TEB account data from the old system to the IRS Master File. During
the conversion process, examination cases had to be closed on the inventory system and
established on the Master File. To accomplish this, TEB office management decided to use the
opened-in-error disposal code, which was an incorrect use of the code because some of the
inventory records were actual examinations that just needed to be moved to the Master File. As
a result, the opened-in-error disposal code was used much more frequently during the process of
converting records to the Master File in Fiscal Years 2002 and 2003 than in subsequent years.
We reviewed Master File data to determine if examinations were conducted on accounts after
being converted to the Master File. We determined that 297 (60 percent) of 491 cases showed
an examination was conducted or is currently being conducted. We reviewed 37 (13 percent) of
the 287 closed cases5 and confirmed examinations were conducted. This is consistent with
TEB office management’s explanation of how the opened-in-error disposal code was used to
establish accounts on the Master File, with examinations being completed afterwards. For the
remaining 194 cases, we could not identify any examination activity because the case either did
not exist on the Master File or the case existed but did not show any examination activity after
the opened-in-error disposal code was input.

Controls for closing examinations and issuing refunds do not provide reasonable
assurance actions are properly approved by TEB office management
Once examinations are complete, the TEB office sends closing letters to bond issuers detailing
the results. In 2001, the former Director, TEB, issued a delegation order that authorized
supervisors to sign the name of the Director, TEB, and the Manager, Field Operations, to closing


4
 We did not verify the completeness of this information because we did not have a basis for comparison.
5
 Of the 297 cases that showed an examination was conducted or is currently being conducted, 287 cases involved a
closed examination and 10 involved an open examination.
                                                                                                         Page 4
                           The Tax Exempt Bonds Office Has Established
                  Controls, but Improvements Are Needed to Prevent Improprieties



letters upon the completion of an examination resulting in an additional tax or in “no change” to
tax. To carry out this action, supervisors were provided signature stamps to manually stamp the
Director, TEB, or the Manager, Field Operations, signatures to closing letters. Examinations
involving a claim for refund only require the signature of a refund claim specialist on the closing
letter. 6
The TEB office uses the following procedures to issue closing letters and refunds:
•   If it is determined during an examination the bonds do not qualify for tax-exempt status, the
    examiners attempt to resolve the matter by entering into a closing agreement with the bond
    issuers. In other cases, the examiner may initiate a series of adverse closing letters.7 The
    closing letters are sent to the bond issuers. These closing letters generally are prepared by
    the examiner and forwarded to a supervisor for review. After the supervisor concurs, the
    letters are emailed to the Manager, Field Operations, for review and concurrence.8 Upon
    receiving approval, supervisors use the signature stamp to sign the letters for the Manager,
    Field Operations. The supervisors then mail the closing letters to the bond issuers and other
    related stakeholders.
•   If it is determined during an examination that the bonds complied with Federal tax laws
    applicable to tax-exempt bonds, a “no change” closing letter9 is prepared by the examiner and
    forwarded to a supervisor for review and concurrence. Upon review, supervisors use the
    signature stamp to sign the “no change” closing letter on behalf of the Manager, Field
    Operations, without having to obtain the Manager, Field Operations’ concurrence.
•   If it is determined during a refund claim examination that the bond issuer is due a refund, the
    examination case file is reviewed by a refund claim specialist who assesses whether the claim
    is accurate. Upon concurrence, the specialist signs the closing letter and authorizes payment
    of a refund.
In considering these TEB office procedures, we identified two control weaknesses. Specifically,
controls that ensure concurrence is obtained from the Manager, Field Operations, and/or the
Director, TEB, need to be strengthened to better assure closing letters proposing additional tax or
“no change” to tax are appropriately approved. Under the current process, the Manager, Field

6
  Claims for refunds more than $1 million require mandatory reviews by the Manager, Field Operations, and
Manager, Compliance and Program Management.
7
  If a closing agreement cannot be initially negotiated, the TEB office may issue a Preliminary Adverse Letter and a
Proposed Adverse Determination Letter to the bond issuer that includes details of the noncompliance. The bond
issuer may choose to appeal the case, enter into a closing agreement, or not respond. If the bond issuer does not
respond, a Final Determination of Tax Liability is issued, which forfeits the bond issuer’s rights for an appeal and
generally results in taxation of the bondholders.
8
  The draft Adverse Determination Letters are forwarded by supervisors to the Manager, Field Operations, via email
because the supervisors are not in the same location as the Manager, Field Operations.
9
  A ”no change” letter is issued when the TEB office closes the examination with no change to the position that
interest received by the bondholders is excludible from gross income under § 103 of the Internal Revenue Code.
                                                                                                            Page 5
                              The Tax Exempt Bonds Office Has Established
                     Controls, but Improvements Are Needed to Prevent Improprieties



Operations, and the Director, TEB, either send an email to the appropriate supervisor or verbally
communicate by telephone approval to use signature stamps. This procedure enables supervisors
to sign and then mail the closing letters. Government Accountability Office Standards for
Internal Control in the Federal Government state “key duties and responsibilities need to be
divided or segregated among different people to reduce the risk of error or fraud.”10 However,
without documentation of authorizations, there is no assurance that closing actions are approved
by management and the process is more susceptible to inappropriate actions.
We reviewed 51 (10 percent) of 523 examination case files that were closed between
October 1, 2005, and December 31, 2006, with a closing agreement proposing either an
additional tax assessment or “no change” to tax. Additional tax assessments were proposed for
27 (53 percent) of the 51 examination case files reviewed, yet no evidence was found to indicate
the Director, TEB, and/or the Manager, Field Operations, approved the related closing letters.
As mentioned previously, no review was required by the Director, TEB, and/or the Manager,
Field Operations, for the remaining 24 cases that involved “no change” to tax so we could not
determine if these were appropriate closing actions.
The second control weakness we identified is key procedures are being performed by the same
employee. It is critical that evidence of adequate separation of duties exists between the
processes of working the case, approving the closing letter, and mailing the closing letter to the
bond issuer and other related stakeholders. Under the existing process, supervisors are provided
with the full capability to perform all of these tasks with no requirement to maintain
documentation of approvals in the examination case files.
This process is especially important for cases involving refund claims. All examination case
files for refund claims are reviewed to determine whether the claim is accurate. Claims
determined to be accurate are forwarded to a refund claim specialist for quality review. For
claims less than $1 million, the refund claim specialist has the capability to prepare a refund
voucher, approve payment, and sign the closing letter,11 without being reviewed by the Manager,
Compliance and Program Management. We did not identify any cases in which the refund claim
specialist actually prepared the refund voucher or in which any improprieties had occurred;
however, our review of 8 (11 percent) of 74 refund claims identified 1 refund claim totaling
approximately $20,000 in which the refund claim specialist quality reviewed the refund claim,
approved the refund payment, and signed the closing letter without any evidence of managerial
review.
These control weaknesses are magnified when considering the dollars involved in examination
cases. In Fiscal Year 2004, TEB examination cases had noncompliance assessments averaging
approximately $19,000 per case but penalties for promoter misconduct averaged approximately


10
     GAO/AIMD-00-21.3.1, dated November 1999.
11
     Employees authorized to approve refund requests must be listed on an official signature list.
                                                                                                     Page 6
                          The Tax Exempt Bonds Office Has Established
                 Controls, but Improvements Are Needed to Prevent Improprieties



$660,000 per case.12 Based on the large amount of money involved and our concerns that
TEB employees are performing multiple functions that should be separated among two or more
people, there is substantial risk improprieties could go undetected (e.g., employees could,
without managerial knowledge, accept payments for not making appropriate tax assessments or
issue refunds when they are not justified). Developing processes that separate working the cases,
approving the closing letters, and mailing the closing letters would substantially reduce the risk
of improprieties. In addition, quality review processes should ensure each of these actions is
appropriately documented in the examination case files. Strengthening controls over
examination closures will provide better assurance that capital raised from issuing tax-exempt
bonds will be appropriately used for public works projects, and examinations are conducted with
integrity and fairness.

Recommendations
The Director, TEB should:
Recommendation 1: Ensure controls are followed that require the inventory coordinator to
close examinations that were opened-in-error only after receiving a form approving the closing
action. Copies of the forms should be maintained by the inventory coordinator or closing
function according to existing guidelines.
        Management’s Response: IRS management agreed with the recommendation.
        During Fiscal Year 2008, the TEB office plans to update its Internal Revenue Manual
        procedures for examination processes. In doing so, the TEB office plans to ensure
        controls are followed that require the inventory coordinator to close opened-in-error
        examinations only after receiving a form approving the closing action. Copies of the
        forms will be maintained by the inventory coordinator or closing function according to
        existing guidelines, or electronically on the new Tax Exempt and Government Entities
        Division Reporting and Electronic Examination System.
Recommendation 2: Develop and implement controls to ensure the appropriate managerial
approvals are obtained and documented for closing letters and refund claims.
        Management’s Response: IRS management agreed with the recommendation.
        During Fiscal Year 2008, the TEB office plans to update its Internal Revenue Manual
        procedures for examination processes. In doing so, the TEB office plans to ensure the



12
  Statistical Portrayal of the Tax Exempt Bonds Office’s Enforcement Activities From Fiscal Year 2002 Through
Fiscal Year 2004 (Reference Number 2005-10-186, dated September 2005).




                                                                                                        Page 7
                The Tax Exempt Bonds Office Has Established
       Controls, but Improvements Are Needed to Prevent Improprieties



appropriate managerial approvals are obtained and documented for closing letters and
refund claims.
Management’s response also included another new control: the Tax Exempt and
Government Entities Division plans to implement a proposed quality review process that
will require universal review of all closed TEB office examinations.




                                                                                 Page 8
                          The Tax Exempt Bonds Office Has Established
                 Controls, but Improvements Are Needed to Prevent Improprieties



                                                                                                 Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this audit were to determine whether closing actions for tax-exempt
bond examinations opened-in-error appropriately complied with IRS guidelines and whether
security and controls over closing actions for field examination cases were effective. To
accomplish our objectives, we:
I.      Determined whether TEB office management established effective processes for closing
        examinations that were opened-in-error. We (1) conducted research on the IRS Master
        File1 for all 491 examinations that were closed as “opened-in-error” between Fiscal
        Years 2002 and 2003 to determine whether an examination was subsequently conducted,
        (2) reviewed a judgmental sample of 37 (13 percent) of 287 modules that were located on
        the Master File as being examined and determined whether the disposition of the case
        was properly approved by TEB office management, and (3) interviewed TEB office
        personnel to determine whether forms used to request and approve the decisions to close
        cases as opened-in-error were maintained for all 491 examinations. We used judgmental
        sampling because we did not plan to project our results.
II.     Determined whether TEB office management implemented effective security processes
        for examination cases established on their inventory system by limiting the capability to
        close a case from the inventory system to inventory coordinators.
III.    Determined whether TEB office management established effective processes for ensuring
        case closing and deletion actions on the inventory system were accurate and appropriately
        authorized. We (1) interviewed TEB office personnel to determine the process for
        reviewing and approving examination cases prior to closure, the post-review process for
        closed cases, and the process to ensure cases were properly closed from the inventory
        system and forwarded to the Ogden Submission Processing Center for filing;
        (2) reviewed a judgmental sample of 51 (10 percent) of 523 examination case files that
        were closed with a closing agreement or as “no change” on the TEB inventory system
        between October 1, 2005, and December 31, 2006, to determine the closing action taken
        and whether the action was appropriately approved; (3) reviewed a judgmental sample of
        8 (11 percent) of 74 refund claim examinations that were closed from the inventory
        system between October 1, 2005, and December 31, 2006, to determine whether the
        claim was appropriately approved; and (4) analyzed all 30 cases that were
        opened-in-error between October 1, 2003, and September 30, 2006, and determined

1
 The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                           Page 9
                        The Tax Exempt Bonds Office Has Established
               Controls, but Improvements Are Needed to Prevent Improprieties



       whether any information existed to indicate the opened-in-error disposal action was
       properly approved by TEB office management. We used judgmental sampling because
       we did not plan to project our sample results.

Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: the TEB office’s policies, procedures, and
practices for closing examinations that were established for its inventory system. We assessed
these controls by interviewing relevant TEB office personnel and managers and by analyzing
applicable processes and procedures.




                                                                                           Page 10
                       The Tax Exempt Bonds Office Has Established
              Controls, but Improvements Are Needed to Prevent Improprieties



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Troy D. Paterson, Director
Gerald T. Hawkins, Acting Director
James V. Westcott, Audit Manager
Allen L. Brooks, Lead Auditor
Margaret A. Anketell, Senior Auditor
Stephanie K. Foster, Senior Auditor
Yolanda D. Brown, Auditor




                                                                                    Page 11
                      The Tax Exempt Bonds Office Has Established
             Controls, but Improvements Are Needed to Prevent Improprieties



                                                                        Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Tax Exempt Bonds, Tax Exempt and Government Entities Division SE:T:GE:TEB
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison:
   Director, Communications and Liaison, Tax Exempt and Government Entities
   Division SE:T:CL




                                                                               Page 12
            The Tax Exempt Bonds Office Has Established
   Controls, but Improvements Are Needed to Prevent Improprieties



                                                    Appendix IV

Management’s Response to the Draft Report




                                                           Page 13
         The Tax Exempt Bonds Office Has Established
Controls, but Improvements Are Needed to Prevent Improprieties




                                                        Page 14
         The Tax Exempt Bonds Office Has Established
Controls, but Improvements Are Needed to Prevent Improprieties




                                                        Page 15
